No. 20-7778

INTHE

hprtmt Cltnurt nf tlJt lnitth &tatts
GERALD SCOTT,

v.
UNITED STATES,

Petitioner,

Respondent.

ON PETITION FOR A WRIT OF CERTIORARI
UNITED STATES COURT OF APPEALS
FOR THE SECOND CIRCUIT

CERTIFICATE OF COMPLIANCE

As required by Supreme Court Rule 33.l(h), I, Alan E . Schoenfeld, a member of
the bar of this Court, certify that the accompanying Brief of F AMM and The National
Association of Criminal Defense Lawyers as Amici Curiae in Support of Petition for a
Writ of Certiorar contains 5,884 words, excluding the parts of the document that are
exempted by Supreme Court Rule 33.l(d).
Executed on May 17, 2021.

/!?_, £ ~

ALANE. SCHOENFELD

Counsel ofRecord

WILMER CUTLER PICKERING
HALE AND DORR LLP

7 World Trade Center
250 Greenwich Street
New York, NY 10007
(212) 230-8800
alan.schoenfeld@wilmerhale.com

